                           SOCIAL SECURITY
                                                                       Inspector General
                                  November 18, 2002


The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

In response to your September 5, 2002 request, I am pleased to provide you the
enclosed report regarding the status of the Social Security Administration's (SSA)
Earnings Suspense File (ESF). Our objective was to review the status of the ESF in
terms of wages and items as well as to determine the number of items reinstated to
earner's accounts from the ESF.

The enclosed report contains information related to:

   ·   Wages and items remaining in the ESF since Tax Year 1937;
   ·   SSA's edit processes designed to remove wages and items from the ESF;
   ·   The volume of wages and items removed from the ESF; and
   ·   SSA's attempts to reduce the size and growth of the ESF.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                            Sincerely,




                                            James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

     Status of the Social
  Security Administration's
   Earnings Suspense File
         A-03-03-23038




        NOVEMBER 2002
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                   Background
In response to a September 5, 2002 request from the Chairman of the Subcommittee on
Social Security, we reviewed the status of the Social Security Administration's (SSA)
Earnings Suspense File (ESF) in terms of wages and items and determined the number
of items reinstated to earner's accounts from the ESF. The enclosed report contains
information related to:

    ·   Wages and items remaining in the ESF since Tax Year (TY) 1937;
    ·   SSA's edit processes designed to remove wages and items from the ESF;
    ·   The volume of wages and items removed from the ESF; and
    ·   SSA's attempts to reduce the size and growth of the ESF.

ROLE OF THE EARNINGS SUSPENSE FILE
Title II of the Social Security Act requires SSA to maintain records of wage amounts
employers pay to individuals. Employers report their employees’ wages to SSA at the
conclusion of each TY. Wages on those employer reports containing invalid names
and/or Social Security numbers (SSN) cannot be posted to an individual’s earnings
record in SSA's Master Earnings File (MEF).1 Instead, these wages are placed in the
ESF—a repository for unmatched wages.2 Suspended wages can affect a worker's
eligibility for and/or the amount of retirement, disability, or survivor benefits. In addition,
when wage reports cannot be matched to the correct individual, both SSA and the
employer incur additional administrative costs in their efforts to correct unmatched wage
reports.

As of July 2002, the ESF contained approximately 236 million wage items totaling about
$374 billion related to TYs 1937 through 2000 (see Figure 1). In TY 2000 alone,
9.6 million items and $49 billion in wages were posted to the ESF. Removal of wage
items and their associated dollar value from the ESF only occurs when the wages can
be matched and posted to an individual’s MEF.




1
 The MEF contains all earnings data reported by employers and self-employed individuals. These data
are used to calculate the Social Security benefits due an individual with an earnings record.
2
  SSA is also required to maintain the wages of self-employed individuals and has a separate ESF for
these submissions. We are not commenting on the self-employment process in this report.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                 1
                               FIGURE 1: STATUS OF THE EARNINGS SUSPENSE FILE
                                              (Tax Years 1937-2000)


                                    $50
                                    $45
                                    $40
                  Suspended Wages

                                    $35
                                    $30
                      (Billions)


                                    $25
                                    $20
                                    $15
                                    $10
                                     $5
                                     $0
                                       37
                                       40
                                       43
                                       46
                                       49
                                       52
                                       55
                                       58
                                       61
                                       64
                                       67
                                       70
                                       73
                                       76
                                       79
                                       82
                                       85
                                       88
                                       91
                                       94
                                       97
                                       00
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    19
                                    20
                                                        Tax Year



EARLIER ANALYSIS OF THE ESF

In a March 2001 paper on the ESF,3 SSA noted that the source of the suspended items
can be viewed from various perspectives. For example, nine states accounted for
70 percent of the suspended items—California alone contributed 35 percent—while
three industries account for 46 percent of the items. SSA noted that many suspended
items involve the agricultural industry, which has transient employees who may not
have work authorizations from the Immigration and Naturalization Service (INS). Other
high turnover industries, such as fast food, restaurants and other service industries,
have similar profiles. Frequent job and residential changes are not uncommon with
members of these workforces. These actions complicate name/SSN correction efforts
when recontacts are necessary.

We have found similar trends in our reviews. In a 1999 audit,4 we analyzed SSA’s ESF
postings for TYs 1993 through 1996 (the most recent data available at the time of our
audit) to develop a database of the 100 employers who had the most suspended wage
items over a 4-year period. Our audit showed that 84 of the 100 employers experienced
increases in the number of suspended Wage and Tax Statements (Form W-2) for their
employees, including 27 employers with at least a 100-percent increase. Many of the
employers are in industries that traditionally rely on low-wage, highly transient workers.
Figure 2 shows the distribution, by industry, of these 100 employers.



3
    SSA Key Initiative Plan and Schedule: Reduce Earnings Suspense File (KI #46), March 15, 2001.
4
 Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended Wage Items
(A-03-98-31009), September 1999.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                 2
                   FIGURE 2: DISTRIBUTION OF 100 EMPLOYERS IN ESF
                                        (Tax Years 1993-1996)


                          24%                           29%

                                                                Services
                                                                Restaurants
                                                                Agriculture
                     2%                                         Hotel/Retail
                     7%                                         State/Local Agency
                                                                Unknown


                           17%                    21%




In our January 2001 review of the agricultural industry,5 we found that, during TYs 1996
through 1998, the 20 agricultural employers we reviewed submitted over 150,000 wage
items for which the employee’s name and/or SSN did not match SSA’s records. These
items represented almost $250 million in suspended earnings over the 3-year period.
About 6 of every 10 wage items submitted by these agricultural employers did not
match the names/SSNs contained in SSA’s files.

In addition, we identified various types of reporting irregularities. During our review
period, 2 employers submitted over 7,000 SSNs that SSA had never issued. Another
employer submitted more than 900 duplicate SSNs over the 3-year period. While we
recognize there are legitimate reasons why a worker’s name and SSN may not match
SSA’s files—such as name changes—we believe the magnitude of erroneous or
incorrect wage reporting is indicative of SSN misuse. SSA senior staff acknowledged
the intentional misuse of SSNs by noncitizens not authorized to work is a major
contributor to the ESF’s growth.

ESF GROWTH, PREVENTIVE MEASURES AND RESOLUTION
Our January 2001 report recommended that SSA establish performance goals and
measures in accordance with the Government Performance and Results Act (GPRA)
that track SSA’s success in reducing the growth and size of the ESF. Presenting ESF
information among its performance measures will raise SSA management and
Congress’ awareness of the growth in the ESF and motivate SSA to reprioritize ESF
projects so they are completed sooner.




5
 Obstacles to Reducing Social Security Number Misuse in the Agricultural Industry (A-08-99-41004),
January 2001.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                               3
While SSA has limited control over the factors that cause the volume of erroneous wage
reports submitted each year, we noted in a May 2002 report6 that the Agency still has
some ability to improve the process. Specifically, SSA can improve wage reporting by
(1) educating employers on reporting criteria; (2) identifying and resolving employer
reporting problems; and (3) coordinating with the Internal Revenue Service (IRS) on
employers who continually submit erroneous wage reports. For example, SSA can
encourage greater use of its SSN verification programs—such as the Employee
Verification Service (EVS)—to ensure employers submit wage reports with valid name
and SSN combinations. In a September 2001 report,7 we noted how one employer
could have prevented $10.2 million in wages from going into the ESF if the employer
had used SSA's EVS. In addition, a GPRA measure on the ESF may indicate to
management over time whether the problem is alleviated by ongoing Agency efforts.
However, should these preventive measures fail to improve employer reporting, SSA
has a number of edit and resolution processes in place to identify the owners of wage
items with mismatched names and/or SSNs (see Figure 3 for a flowchart showing the
various processes in place to correct wage items).

            Figure 3: Processes to Prevent and Resolve Suspended Wages                                 (1)


                 Prior to Wage
                                                                After Wage Reporting
                   Reporting
                EMPLOYEE
                NAME/SSN
               VERIFICATION
                                                AUTOMATED AND MANUAL EDITS WITHIN THE ESF
           Includes the Employee
           Verification Service,
           planned Social               Includes Overnight Validation, Single Selects, SWEEP, Operation 30,
           Security Number              FERRET, IRS reconciliation and reinstatements, and Itemized
           Verification Service         Correction. Some edits, such as Overnight Validation and Single
           and employer                 Selects, are performed on incoming wages before notices are
           contacts at SSA              printed. Other processes, such as SWEEP and Itemized
           Field Offices and            Correction, continue to resolve wage items indefinitely.
           Teleservice Centers. (2)



                                                                                    CONTACT
                                                                                   EMPLOYERS
                                                                                  AND EMPLOYEES
                                                                          Includes Decentralized
                                                                          Correspondence primarily
                                                                          to employees, Education
                                                                          Correspondence to employers,
                                                                          Earnings After Death notices,
                                                                          and Young Children’s Earnings
                                                                          Record notices.

          Notes:
          (1) See Appendix B for an explanation of the various edits and resolution processes.
          (2) Employers can call SSA field offices or the teleservice centers to verify up to 50 names/SSNs of
          employees.


6
 Management Advisory Report: Recent Efforts to Reduce the Size and Growth of the Social Security
Administration’s Earnings Suspense File, (A-03-01-30035), May 2002.
7
 Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022),
September 2001.



Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                           4
                                                 Results of Review
The following sections provide information on (1) the composition of the ESF; (2) the
growth of the ESF; (3) wages removed from the ESF; and (3) SSA’s recent efforts to
reduce the size of the ESF. We also provide additional detail in the appendices to this
report.

COMPOSITION OF THE ESF

A review of ESF data as of July 2002, indicates the following.

    ·   Approximately $14.4 billion in suspended wages and 84 million suspended wage
        items remain in the ESF for TYs 1937 through 1970.

    ·   Suspended wages for TYs 1971 through 2000 represent 96 percent of the total
        ESF wages, while the suspended wage items for the same period represent only
        64.5 percent of total ESF items.

    ·   The average wage in the ESF for TYs 1937 through 1940 was approximately
        $69, while the average suspended wage in TY 2000 was approximately $5,148.8

                          Table 1: ESF Wages and Items (TYs 1937-2000)

                                     Total Suspended               Total Suspended
                Tax Years                 Wages                      Wage Items
                1937-1940                $ 704,315,912                    10,274,939
                1941-1950                2,095,008,454                    20,262,484
                1951-1960                3,838,657,417                    22,914,949
                1961-1970                7,794,058,409                    30,488,714
                1971-1980               29,732,945,299                    47,370,236
                1981-1990               91,188,665,169                    44,878,334
                1991-2000              239,143,905,605                    60,400,315
                  Total               $374,497,556,265                   236,589,971

The ESF wage items possess a number of characteristics that may impact the likelihood
of their being reinstated as well as provide information on potential SSN misuse. For
example, under current edit processes, SSA would have greater difficulty in resolving
wages reported under an SSN of all zeroes than if two digits in the SSN were
8
  This does not factor in inflation, which would have caused all wages, including suspended wages, to
increase over the years. In addition, SSA staff noted that although the average wage item in the ESF for
TYs 1951-1990 has a much lower dollar value than ESF items since TY 1990, the earnings since 1951
are "indexed" to allow for the rise in wage levels. Therefore, reinstatement of these older ESF items to
the correct earnings records would have greater impact on the benefit amount than the original dollar
value of the earnings items in the ESF.



Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                     5
transposed.9 In addition, SSNs of all zeroes may represent a wage reporting problem
with the employer, whereas wages reported under a valid SSN with a mismatched
name may indicate a transposition error or even some form of SSN misuse. In Figure
4, we provide a breakout of the contents of the items in the ESF from TYs 1937 through
2000.



                                Figure 4: Contents of the ESF
                                       (TYs 1937-2000)

                                       1%    1%
                                11%

                                                                     Valid SSN/Name
                                                                     Mismatch
                                                                     Zero SSN


                                                          48%        Invalid SSN

                                                                     No Name/Zero SSN

                                                                     Special Indicator

                          39%




The largest single volume of items in the ESF (48 percent) relates to valid SSNs where
the provided name did not match SSA's records. The other categories of suspended
items include:

·     39 percent of the suspended items related to SSNs that were all zeroes (zero SSNs);
·     11 percent of the suspended items had an invalid (unissued) SSN;
·     1 percent of the suspended items had no name and zero SSNs; and
·     1 percent of the suspended items had a special indicator, that relates to items
      suspended due to the Earnings After Death or Young Children's Earnings Records
      edits (see Appendix B).




9
    SSA’s Single Selects edit process can correct transposed SSNs.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                   6
A similar breakout of the TY 2000 suspended items shows a somewhat different picture
(see Figure 5). For example, only 3 percent of the suspended items relate to zero
SSNs, and two-thirds of the suspended items had valid SSNs without a matching name.
While SSA does not maintain ESF data for a similar point-in-time comparison of all TYs
since 1937, it appears the high volume of zero SSNs in the breakout for TYs 1937 to
2000 represents suspended items that cannot be resolved under current edit processes
and therefore accumulate in the ESF over time.



                           Figure 5: Contents of the ESF
                                     (Tax Years 2000)

                                   2%



                     29%                                     Valid SSN/Name
                                                             Mismatch
                                                             Zero SSN

                                                             Invalid SSN

                                                             Special Indicator

                                                   66%
                        3%




GROWTH OF THE ESF

The ESF continues to grow in both real and relative terms. In TY 1998, the ESF
exceeded 1 percent of total reported wages, and it continues to grow in relative terms.
For example, in TY 2000, approximately $4.3 trillion in wages were reported to SSA,
and about $58.5 billion (1.36 percent) of these wages went into the ESF. In Figure 6,
we present the 5-year growth of ESF wages as a percentage of total reported wages.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                    7
                                              Figure 6: Percent of Suspended Wages
                                               Compared to Total Reported Wages
                                                      (Tax Years 1996-2000)

                                              1.40



                    Percent of Posted Wages
                     Suspended Wages as a
                                              1.20
                                              1.00
                                              0.80
                                              0.60
                                              0.40
                                              0.20
                                              0.00
                                                     1996   1997     1998      1999   2000
                                                                   Tax Years

                           Note: Total reported wages includes wages going into the Master Earnings
                           Files as well as the ESF.



WAGES REMOVED FROM THE ESF
Over the 4-year period ended in July 2002, SSA removed approximately $10 billion in
suspended wages and approximately 1.7 million in suspended wage items from the
ESF for TYs 1937 through 1996. This reduction represented approximately 4 percent of
the suspended wages and 1 percent of suspended wage items for TYs 1937 through
1996. See Appendix D for a chart showing the wages and items removed for each TY.

We also reviewed SSA's ESF Reinstates File to determine what SSA removed from the
ESF for TYs 1978 through 2000 (see Appendix E). We found that SSA had removed
approximately 82.7 million items from the ESF for this period or an average of
3.6 million suspended items, annually. In addition, while the Reinstates File does not
provide a complete picture of all reinstatements,10 it does indicate that SSA eventually
resolved over 41 percent of suspended items during this period.

For purposes of illustration, we provide a breakdown of the approximately 2.6 million
items reinstated in TY 1998 in Figure 7. This information was taken from SSA's
Reinstates File. Most of the TY 1998 reinstated items relate to SSA’s Single Selects
edit—which primarily catches transposition and single-digit errors of SSNs.11




10
  The ESF Reinstates File was not designed to capture all reinstated items, but rather captures the latest
entity in a series of reinstatements so that this information could be used in resolving similar problems in
the future.
11
   SSA staff noted that Single Select is performed throughout the resolution process―both before and
after an item has gone into the ESF.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                     8
                               Figure 7: Reinstated Items by Edit Process
                                          (Tax Year 1998)
                                             2%   2%
                                        2%
                                   8%
                                                                               Single Selects
                              8%                                               Prior Reinstate
                                                                               DECOR
                                                                               IRS Reinstates
                                                                               Other
                                                                61%            Item Correction
                            17%
                                                                               Operation 30




Decentralized correspondence (DECOR) sent to employees/employers and Internal
Revenue Service (IRS) Reinstates comprise the next two most successful edits.12 For a
full description of these edits, see Appendix B.

RECENT SSA EFFORTS TO REDUCE ESF SIZE AND GROWTH

SSA has recently taken a number of steps to reduce size and growth of the ESF. Some
of these steps include the following.

·     Social Security Number Verification System (SSNVS): SSA plans to expand its
      EVS program to include an on-line service called SSNVS. This service is being
      piloted among a few employers, but SSA hopes it will encourage more employers to
      use SSA's name/SSN verification program for new employees. Our September
      2002 report on EVS13 for registered users noted that only 394 of approximately
      6.5 million employers in the United States were using SSA’s EVS in the last 3 years.
      We also noted that SSA did not disclose pertinent information that could have
      assisted users. Specifically, SSA did not inform employers when a submitted SSN
      belonged to a deceased individual or when the SSN was issued to the individual for
      nonwork purposes. SSA has stated it intends to modify both EVS and SSNVS to
      disclose the pertinent information to employers.




12
     Prior reinstates are not included because they are a reflection of past activity and not a new edit.
13
  The Social Security Administration’s Employee Verification Service for Registered Employers
(A-03-02-22008), September 2002.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                      9
·   Educational Correspondence: SSA sends “no match” letters—or educational
    correspondence—to all employers who submit W-2s containing name and/or SSN
    information that does not agree with SSA’s records. Although SSA has been
    sending educational correspondence letters to specific employers since 1994, in
    TY 2001, SSA began sending letters to all employers where the name and/or SSN
    on just one W-2 did not agree with SSA’s records. Before this, SSA only sent letters
    to employers who submitted 10 or more W-2s that SSA could not process, and the
    unprocessable W-2s represented more than 10 percent of the employer’s total. This
    earlier criteria overlooked small employers or employers who submitted only a few
    records that SSA could not process.

·   New ESF Edits: SSA is modifying its edits to locate the owners of suspended
    wages. Whereas previous edits used only the name and SSN of the suspended
    wage, SSA stated that the new processes would use information stored on the
    earnings records and benefit records. As a result, in addition to matching names
    and SSNs, the processes will use employment history and earnings patterns to help
    identify the number holder related to the suspended items. SSA also noted that the
    new processes should also be able to resolve millions of wage items reported with a
    "zero" SSN, which have proven to be the most difficult items to correct. SSA
    expects that the new processes will post many millions of ESF items to the proper
    earnings records and result in benefit increases to current and future beneficiaries.

    SSA's Office of Systems recently reported that it has already used a variation of the
    processes noted above as part of its recent SWEEP operation. The operation
    reinstated an additional 600,000 items in the fall of 2002.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                  10
                                                         Conclusions
We commend SSA for its efforts to reduce the size and growth of the ESF. The ESF
continues to grow in both real and relative terms, and it will continue to need
management's attention. While SSA cannot control all of the factors related to the
ESF's growth, we believe our earlier recommendations are still valid and would assist
SSA in resolving some of the issues related to accurately posting earnings.

Previous Office of the Inspector General recommendations for reducing the size and
growth of the ESF include the following:

·   Establish GPRA performance goals and measures that track SSA’s success in
    reducing the growth and size of the ESF.

·   Seek legislative authority to provide SSA the tools to require chronic problem
    employers to use EVS.

·   Strengthen efforts with the IRS and INS to identify problem employers, given that
    some large employers have as much as two-thirds of their wage reports going into
    suspense.

·   Pursue with the IRS penalties on chronic problem employers and, should the IRS fail
    to impose such penalties, seek SSA sanctioning authority.

·   Develop a management information system to identify employers who have their
    wage reports force processed and identify the number of times their wage reports
    are force processed.

See Appendix F for SSA's remarks on these prior recommendations.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                  11
                                      Appendices
  Appendix A – Acronyms
  Appendix B – Earnings Suspense File Edit and Resolution Processes
  Appendix C – Scope and Methodology
  Appendix D – Reductions in the Earnings Suspense File (4-Year
                     Analysis for Tax Years 1937 - 1996)
  Appendix E – Earnings Suspense File Reinstatements
                     (Tax Years 1978 – 2000)
  Appendix F – SSA Remarks on Prior Earnings Suspense File
                     Recommendations
  Appendix G – Prior Office of the Inspector General Reports
  Appendix H – OIG Contacts and Staff Acknowledgements




Status of SSA’s Earnings Suspense File (A-03-03-23038)
                                                                     Appendix A
Acronyms
    DOB                Date of Birth

    DECOR              Decentralized Correspondence

    EAD                Earnings After Death

    EDCOR              Educational Correspondence

    EM 2.8             Earnings Modernization 2.8

    ESF                Earnings Suspense File

    EVS                Employee Verification Service

    INS                Immigration and Naturalization Service

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OIG                Office of the Inspector General

    SSA                Social Security Administration

    SSN                Social Security Number

    SSNVS              Social Security Number Verification Service

    TY                 Tax Year

    WBDOC              Wilkes-Barre Data Operations Center

    YCER               Young Children’s Earnings Records




Status of SSA’s Earnings Suspense File (A-03-03-23038)
                                                                       Appendix B
Earnings Suspense File Edit and Resolution
Processes
The Social Security Administration (SSA) uses a variety of editing routines and other
processes to correct and post many of the wage items with name/Social Security
number (SSN) mismatches or other problems, both before and after they go into the
Earnings Suspense File (ESF). Some of these processes are described below.

·   Overnight Validation: This process basically identifies name/SSN mismatches on
    the reporting year's paper Wage and Tax Statement (Form W-2) before routine edits
    are performed. Any processed name/SSN mismatches go through the Single
    Selects operation described below. Suspended items not corrected by Single
    Selects are highlighted in a return electronic transmission from the National
    Computer Center to the Wilkes-Barre Data Operations Center (WBDOC). WBDOC
    technicians look at the image of the original W-2 and re-key any incorrect items.
    They also input the employee address to all returned items—whether corrected or
    not—for later decentralized correspondence (DECOR) and FERRET activities.

·   Single Selects: This operation assumes the reported name is correct and the SSN
    is wrong. Many errors are caused when the name is correct, but there is a
    transposition error in the SSN. The operation creates "ghost" records from
    combinations of numbers in the reported SSN with the reported name. The system
    then screens these records against their related Numident records—the Numident
    file is SSA’s database of all valid SSNs. If one and only one Numident matches the
    reported name, the item is reinstated. This operation prevents about 2.2 million
    wage items from going to the ESF, annually.

·   Operation 30: This process identifies ESF items with valid SSNs and connects
    SSA's Numident records with the ESF item. It assumes the SSN is correct, but the
    name is wrong. Technical staff perform a sight comparison to review reported data
    against on-line SSA records and make judgments to accept wage items for Master
    Earnings File (MEF) posting or send the data back to the ESF.

·   DECOR: When wage items reach the ESF, SSA’s system generates notices to
    employees and employers. The main purpose of DECOR notices is to query
    employees and employers to resolve SSN and/or name discrepancies. While these
    notices are usually mailed to employees, letters are mailed to an employer if there is
    no address for the employee. SSA reviews DECOR responses to remove items
    from the ESF for posting to an individual’ s MEF record. If individuals do not
    respond to DECOR notices, their information goes through the FERRET operation.
    In TY 2000, DECOR generated and mailed about 9.5 million notices.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                  B-1
      In a recent report on SSA’s DECOR process,1 we found that 9.5 percent of Tax
      Year (TY) 1998 suspended wage items were reinstated through all reinstatement
      processes, and that DECOR was one of the more effective means of identifying the
      owners of suspended wage items. The DECOR process reinstated 3.5 percent of
      suspended items and was the third most effective method for reinstating our sample
      items of SSA’s seven primary manual and automated reinstatement processes in
      that year.

·     Educational Correspondence (EDCOR): When SSA processes a wage report with
      a name and/or SSN that does not match SSA’s records, SSA generates a notice to
      the employer. These EDCOR notices state that SSA received wage items that could
      not be validated. EDCOR notices list up to 500 SSNs but do not provide names.
      SSA requests that employers file corrected W-2(s) to correct the error(s). SSA has
      recently modified the EDCOR process to expand the number of employers receiving
      correspondence.

·     FERRET: FERRET is a periodic electronic operation that uses SSA and Internal
      Revenue Service (IRS) records to make reinstatements from the ESF to wage
      earners’ records. WBDOC creates the FERRET file—basically an address file—
      from the non-responder DECOR file. The FERRET file is processed against IRS tax
      returns for matches to address data. Names or parts of names are then propagated
      from the IRS file to create possible reinstatements. These possible matches are
      then screened using SSA’s SSN validation process.

·     SWEEP: SWEEP is an electronic operation that periodically uses SSA’s latest
      system enhancements and validation rules, including the more than 20 routine edits
      used on incoming wages, to remove items from the ESF and reinstate them to wage
      earners’ MEF records. This edit is being updated with additional validation rules
      described in the "New Edits" section below.

·     Item Correction: This process allows SSA staff to correct the earnings record of an
      individual through a system called Earnings Modernization 2.8 (EM 2.8). The
      EM 2.8 system is a computerized process for adjusting an individual’s earnings
      record thereby helping SSA establish and maintain an accurate and complete MEF.
      This system allows SSA employees to add, change, move, or delete an individual’s
      earnings overnight via on-line interactive screens. This is basically a paperless
      system—with proofs and rationale recorded electronically after an initial inspection
      by an SSA employee(s).

·     Earnings After Death (EAD): SSA also has processes in place to detect unusual
      earnings reports—such as instances where earnings relate to someone recorded as
      deceased on SSA's records. Under the EAD process, when a date of death is
      present on the Numident, all earnings items reported after the year of death are
      placed in the ESF. The earnings are also transmitted to an EAD investigate file so

1
    The Effectiveness of SSA’s Decentralized Correspondence Process (A-03-01-11034), July 2002.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                            B-2
    that notices can be printed and mailed to employers and/or earners. SSA sends
    EAD notices to employers, employees, and self-employed individuals. Employer
    responses are returned to SSA for processing. If the employer states the individual
    was working for them, SSA sends a notice to the employee requesting that he or she
    visit a field office to correct his or her earnings information. At the field office, staff
    interview the individual and verify his or her identification. If the evidence appears
    valid, SSA personnel reinstate the wages to the proper MEF account. If the
    employer states the wage earner is deceased, SSA informs the employer to refund
    the employee's share of the Social Security taxes to the employee's estate or next of
    kin, and the relevant wages will remain in the ESF. Notices sent to employees and
    self-employed earners request that the individuals call SSA or visit a field office to
    resolve the earnings problem.

    In our 2002 audit of the EAD process,2 we found that SSA's EAD edit was not
    effective in resolving TY 1998 suspended earnings items. While SSA reinstated
    approximately 6 percent of the suspended items in our sample, another 22 percent
    of the suspended items could also have been reinstated. In addition, 33 percent of
    the sample items contained instances where it appears someone else was using the
    deceased individual's name and/or SSN. Our review of the EAD suspended items
    for TY 1998 also indicated that 7 of the top 10 contributors to the file were from the
    entertainment industry. Better communication with this industry could reduce the
    number of suspended items going into the ESF.

·   Young Children's Earnings Records (YCER): Another unusual earnings pattern
    monitored by SSA relates to young earners. Under the YCER process, SSA checks
    the date of birth for the SSN on each earnings report. If a date of birth indicates that
    the numberholder of the SSN is a child age 6 or younger, the earnings will be placed
    into the ESF. When the wage reporting process is complete, a YCER investigate file
    is generated to determine whether the earnings belong to the reported SSN; i.e., a
    child age 6 or younger.

    SSA contacts the employer to verify the earner's identity. If the employer states the
    numberholder’s SSN, name and date of birth (DOB) agree with SSA’s records, the
    wages are reinstated to the numberholder. If the employer states the
    numberholder’s name and SSN are the same as SSA’s records, but the DOB is
    different, a form is sent to the numberholder advising him or her to contact the local
    SSA office to correct the discrepancy. If the employer states the name and/or SSN
    is different from SSA’s records, the information is further researched. If the
    employer does not return the form or states that the numberholder of the SSN did
    not work for them, a letter is sent to the numberholder of the SSN asking him or her
    to contact the local SSA field office.




2
 Effectiveness of the Social Security Administration’s Earnings After Death Process (A-03-01-11035),
August 2002.


Status of SSA’s Earnings Suspense File (A-03-03-23038)                                                 B-3
·   Reinstatements from the IRS: While SSA is attempting to resolve mismatched
    names and SSNs within the ESF, the IRS is performing a similar process. The IRS
    provides SSA a file containing resolved mismatches so that SSA can use this
    information to locate the owners of suspended items in the ESF.

·   SSA/IRS Earnings Reconciliation Process: The SSA/IRS earnings reconciliation
    process compares employee wage data submitted to the IRS to wage data
    submitted to SSA. Wage data are submitted to both agencies by employers, their
    representatives, third parties and agents. When more wages are reported to the IRS
    than to SSA, SSA is concerned that employees' earnings are not recorded correctly
    in the Agency's records. SSA examines these cases and attempts to resolve any
    difference without contacting the employer. When this effort is unsuccessful, SSA
    sends a notice and questionnaire to the employer, requesting information to resolve
    the case. If SSA does not receive a response within 45 days, the employer is sent a
    second notice. When no response is received after the second notice, the IRS is
    responsible for contacting the employer and may impose penalties, if necessary.

·   New Edits: SSA is developing new edit routines that take advantage of other
    information provided on W-2s—such as the Employer Identification Number3—and
    matching this information to data in other SSA systems. SSA hopes to reinstate
    additional suspended items using these new edits.

Further, SSA annually has thousands of contacts with employers to help them report
wages correctly. For example, the Agency estimates it received over 200,000 calls from
employers in Fiscal Year 1999.




3
  The Employer Identification Number is a nine-digit number assigned to an employer by the IRS for
tax-reporting purposes.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                               B-4
                                                                     Appendix C
Scope and Methodology
To review the status of the Social Security Administration's (SSA) Earnings Suspense
File (ESF) and determine the number of items reinstated to earner's accounts from the
ESF, we:

·   Reviewed policies and procedures regarding the ESF.

·   Reviewed earlier management reports, reviews, and/or testimony completed on the
    ESF.

·   Obtained from SSA a schedule of wages and wage items in the ESF as of
    July 2002. We also utilized earlier ESF schedules for purposes of comparison.

·   Obtained from SSA a copy of the ESF Reinstates File as of March 2002 and sorted
    this information to determine the number of items reinstated from the ESF to the
    Master Earnings File, and the reason for this reinstatement.

·   Identified processes that SSA uses to remove items from the ESF.

Our audit did not include a test of information systems to verify the completeness and
accuracy of the ESF files. The entity responsible for the maintenance of the ESF is the
Earnings Records Maintenance Branch under the Deputy Commissioner of Systems.
Our work was conducted at the Office of Audit in Philadelphia, Pennsylvania, during
September 2002. We conducted our review in accordance with generally accepted
government auditing standards.




Status of SSA’s Earnings Suspense File (A-03-03-23038)
                                                                      Appendix D
Reductions in the Earnings Suspense File
(4-Year Analysis for Tax Years 1937–1996)
        STATUS AS OF MAY 1998          STATUS AS OF JULY 2002

                            Total                         Total                      Decrease
              Total      Suspended           Total      Suspended    Decrease           in
 Tax      Suspended        Wage          Suspended        Wage          in            Wage
 Year        Wages         Items            Wages         Items       Wages           Items
 1937      $ 320,264,533  4,778,952       $ 320,260,424  4,778,924         $ 4,109          28
 1938        152,539,279  2,359,633         152,536,852  2,359,592           2,427          41
 1939        128,806,444  1,785,755         128,802,214  1,785,732           4,230          23
 1940        102,719,879  1,350,734         102,716,422  1,350,691           3,457          43
 1941        163,506,294  2,004,468         163,495,166  2,004,325         11,128          143
 1942        236,382,329  2,559,846         236,358,430  2,559,601          23,899         245
 1943        235,288,917  2,419,184         235,246,511  2,418,896         42,406          288
 1944        180,162,922  1,896,135         180,134,213  1,895,929          28,709         206
 1945        195,588,632  2,025,257         195,552,613  2,025,036         36,019          221
 1946        218,249,940  2,130,854         218,216,369  2,130,607          33,571         247
 1947        225,180,734  1,968,573         225,140,868  1,968,354         39,866          219
 1948        241,097,302  2,004,376         241,064,418  2,004,195          32,884         181
 1949        187,103,301  1,560,863         187,082,497  1,560,693         20,804          170
 1950        212,747,026  1,694,994         212,717,370  1,694,848          29,656         146
 1951        332,926,787  2,470,175         332,886,810  2,469,939         39,977          236
 1952        314,902,823  2,360,058         314,864,221  2,359,864          38,602         194
 1953        277,641,883  2,042,426         277,617,387  2,042,230         24,496          196
 1954        256,809,991  1,730,839         256,785,806  1,730,669          24,185         170
 1955        419,689,844  2,363,876         419,538,295  2,363,356        151,549          520
 1956        441,557,662  2,514,765         441,484,768  2,514,403          72,894         362
 1957        483,006,346  2,541,925         481,959,682  2,538,827      1,046,664        3,098
 1958        427,693,392  2,234,603         427,127,728  2,233,002        565,664        1,601
 1959        456,848,009  2,399,100         455,456,659  2,397,871      1,391,350        1,229
 1960        431,532,350  2,266,392         430,936,060  2,264,788        596,290        1,604
 1961        390,474,207  2,044,470         389,970,120  2,043,279        504,087        1,191
 1962        421,544,702  2,190,150         421,110,254  2,188,914        434,448        1,236
 1963        424,889,796  2,149,239         424,550,503  2,148,361        339,293          878
 1964        480,850,508  2,335,007         480,433,865  2,334,066        416,643          941
 1965        574,081,537  2,651,885         573,725,701  2,650,974        355,836          911
 1966        774,383,410  3,349,310         773,658,191  3,347,885        725,219        1,425
 1967        974,888,740  3,584,662         973,143,307  3,581,875      1,745,433        2,787
 1968      1,104,327,311  3,909,973       1,102,814,632  3,907,556      1,512,679        2,417
 1969      1,298,236,741  4,240,045       1,296,462,118  4,237,477      1,774,623        2,568
 1970      1,360,185,099  4,050,683       1,358,189,720  4,048,327      1,995,379        2,356
 1971      1,372,593,747  3,873,634       1,370,541,032  3,871,222      2,052,715        2,412
 1972      1,776,231,645  4,821,906       1,772,163,679  4,818,535      4,067,966        3,371
 1973      2,169,804,918  5,717,692       2,165,091,310  5,712,340      4,713,608        5,352
 1974      2,205,525,333  5,304,832       2,199,334,845  5,298,643      6,190,488        6,189
 1975      1,972,550,232  4,141,611       1,966,708,835  4,136,135      5,841,397        5,476
 1976      2,269,670,368  4,405,552       2,259,797,842  4,397,316      9,872,526        8,236

Status of SSA’s Earnings Suspense File (A-03-03-23038)                                  D-1
        STATUS AS OF MAY 1998          STATUS AS OF JULY 2002

                            Total                         Total                        Decrease
              Total      Suspended           Total      Suspended       Decrease           in
 Tax      Suspended        Wage          Suspended        Wage             in           Wage
 Year        Wages         Items            Wages         Items          Wages          Items
 1977      3,040,712,488  5,239,091       3,019,704,659  5,222,732        21,007,829      16,359
 1978      3,694,586,115  4,297,280       3,604,177,150  4,261,037        90,408,965      36,243
 1979      5,327,442,603  4,974,503       5,159,768,359  4,901,557       167,674,244      72,946
 1980      6,374,544,342  4,794,316       6,215,657,589  4,750,719       158,886,753      43,597
 1981      7,372,452,293  4,735,823       7,086,371,976  4,674,988       286,080,317      60,835
 1982      7,068,227,556  4,110,812       6,836,337,045  4,058,655       231,890,511      52,157
 1983      7,579,861,389  4,081,853       7,323,021,060  4,030,382       256,840,329      51,471
 1984      8,759,959,634  4,571,820       8,492,804,027  4,516,980       267,155,607      54,840
 1985     10,891,750,974  5,426,446      10,486,891,755  5,327,009       404,859,219      99,437
 1986     12,203,069,280  5,740,295      11,793,699,290  5,643,803       409,369,990      96,492
 1987     12,978,550,313  5,398,331      12,361,236,933  5,273,404       617,313,380    124,927
 1988     10,585,451,131  4,833,266      10,097,109,746  4,730,881       488,341,385    102,385
 1989      7,851,713,779  3,213,693       7,424,530,035  3,124,947       427,183,744      88,746
 1990      9,769,245,835  3,589,593       9,286,663,303  3,497,285       482,582,532      92,308
 1991     10,415,509,909  3,458,333       9,819,241,451  3,360,453       596,268,458      97,880
 1992     12,228,795,482  4,072,043      11,426,894,284  3,932,560       801,901,198    139,483
 1993     15,721,312,276  4,922,467      14,757,140,537  4,791,851       964,171,739    130,616
 1994     17,217,816,645  5,217,399      16,260,016,741  5,095,635       957,799,904    121,764
 1995     19,784,660,359  5,647,471      18,657,123,092  5,529,921     1,127,537,267    117,550
 1996     23,498,443,223  6,143,975      22,295,985,657  6,118,639     1,202,457,566      25,336
Totals $238,576,590,539 206,703,244 $228,570,052,426 205,018,715     $10,006,538,113 1,684,529




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                    D-2
                                                                                  Appendix E
Earnings Suspense File Reinstatements
(Tax Year 1978–2000)
                 Total Items                                Total Items             Total Wages
    Tax            Initially              Items         in Suspense as of       in Suspended as of
    Year        Suspended (1)         Reinstated (2)         July 2002               July 2002
   1978              8,804,772            4,543,735             4,261,037           $3,604,177,150
   1979              9,816,811            4,915,254             4,901,557           $5,159,768,359
   1980              9,309,242            4,558,523             4,750,719           $6,215,657,589
   1981              8,894,100            4,219,112             4,674,988           $7,086,371,976
   1982              7,675,678            3,625,835             4,058,655           $6,836,337,045
   1983              7,890,966            3,860,584             4,030,382           $7,323,021,060
   1984              8,761,468            4,244,488             4,516,980           $8,492,804,027
   1985             10,002,093            4,675,084             5,327,009          $10,486,891,755
   1986             10,516,134            4,872,331             5,643,803          $11,793,699,290
   1987              9,589,138            4,315,734             5,273,404          $12,361,236,932
   1988              8,357,128            3,626,247             4,730,881          $10,097,109,746
   1989              6,756,693            3,631,746             3,124,947           $7,424,530,035
   1990              7,134,883            3,637,598             3,497,285           $9,286,663,303
   1991              6,236,239            2,875,786             3,360,453           $9,819,241,451
   1992              6,463,710            2,531,150             3,932,560          $11,426,894,284
   1993              7,129,459            2,337,608             4,791,851          $14,757,140,537
   1994              8,522,870            3,427,235             5,095,635          $16,260,016,741
   1995              8,840,355            3,310,434             5,529,921          $18,657,123,092
   1996              9,025,530            2,906,891             6,118,639          $22,295,985,657
   1997              9,277,595            2,771,421             6,506,174          $26,222,918,498
   1998              9,782,741            2,646,073             7,136,668          $31,280,270,975
   1999             11,045,713            2,713,460             8,332,253          $39,026,283,645
   2000             12,075,357            2,479,196             9,596,161          $49,398,030,726
 Total (3)         201,908,675          82,725,525           119,191,962         $345,312,173,873
Source of Reinstatement Figures: Social Security Administration (SSA) data as of March 2002.
Source of ESF Figures: SSA data as of July 2002.

Notes:
(1) This is an estimate based on adding items still in suspense and items already reinstated.
(2) These figures come from SSA's Reinstates File which does not record every reinstatement. For
   example, more recent reinstatements may overwrite older data. As a result, recent reinstatement data
   are more likely to be complete. In addition, some reinstatements are not recorded in this File before
   being posted. Pre-1978 figures were incomplete and could not be used for comparison purposes.
(3) SSA is currently running the regular SWEEP and a new process to detect gaps in an earner's record.
   SSA expects that about 1 million items will be removed from the ESF based on these efforts.



Status of SSA’s Earnings Suspense File (A-03-03-23038)
                                                                           Appendix F
SSA Remarks on Prior Earnings Suspense File
Recommendations
            Social Security Administration's (SSA) Remarks on
     Prior Earnings Suspense File (ESF) Recommendations from the
                   Office of the Inspector General (OIG)
                     (Provided on November 4, 2002)

  Prior OIG Recommendation                                 SSA Remarks

 Establish Government                SSA plans to include such GPRA goals and measurements
 Performance and Results Act         in its upcoming Fiscal Year (FY) 2004 Annual Performance
 (GPRA) performance goals and        Plan as well as the Agency's Strategic Plan for 2003-2008.
 measures that track SSA’s           SSA's progress in achieving new goals will be measured by
 success in reducing the growth      the Office of Quality Assurance and Performance
 and size of the ESF                 Assessment's records of items removed from suspense
                                     and posted to the correct earnings records. The new
                                     processes to reexamine the ESF will also identify millions
                                     of items that are already on the correct earnings records
                                     and therefore will be removed from the ESF.


 Seek legislative authority to       SSA believes the Agency can provide the Internal Revenue
 provide SSA the tools to require    Service (IRS) with the evidence needed to show that an
 chronic problem employers to        employer knew or should have known its employees' Social
 use Employee Verification           Security numbers (SSN) were incorrect, without seeking
 Services (EVS)                      legislation. SSA has information available on reported
                                     SSNs that the employer should have known were incorrect.
                                     SSA is also developing a management information
                                     database, which will provide extensive information enabling
                                     us to track chronic problem employers.

                                     SSA noted it could provide the IRS with lists of employers
                                     who chronically report unassigned, duplicate or consecutive
                                     SSNs. SSA presently encourages all employers to use
                                     EVS, especially employers with reporting problems. Also,
                                     SSA is developing an employer history file in its
                                     management information database that will enable us to
                                     track incorrect reporting of employers over multiple years.
                                     Accordingly, SSA believes it will have sufficient evidence to
                                     assist IRS in efforts to assess penalties without SSA
                                     seeking legislation.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                       F-1
  Prior OIG Recommendation                                 SSA Remarks

 Strengthen efforts with the IRS     SSA progress is already covered in the information
 and Immigration and                 regarding OIG's recommendations to (1) seek legislative
 Naturalization Service (INS) to     authority to provide SSA the tools to require chronic
 identify problem employers,         problem employers to use EVS and (2) pursue IRS to
 given that some large               assess penalties on chronic problem employers.
 employers have as much as
 two-thirds of their wage reports
 going into suspense


 Pursue with the IRS penalties       SSA noted that the IRS has agreed to impose penalties for
 on chronic problem employers        the most egregious noncompliant employers. (The source
 and, should the IRS fail to         is a letter from Senator Grassley to the IRS Commissioner,
 impose such penalties, seek         dated September 24, 2002.) SSA believes the IRS, rather
 SSA sanctioning authority           than SSA, is the appropriate agency to impose any
                                     penalties on the employer—because the information
                                     employers are reporting is tax-related data, subject to IRS
                                     provisions.

                                     Additionally, SSA stated that creating and staffing a
                                     component for imposing and collecting penalties will incur
                                     an enormous cost to the Agency, with no current estimates
                                     of the benefits to be gained. Any such consideration would
                                     require further administrative and budgetary study. IRS
                                     already possesses the organizational structure for
                                     assessing and collecting penalties. Further, SSA’s culture
                                     and image is that of working with employers to assist them
                                     in improving their reporting accuracy. SSA believes this is
                                     in the workers’ best interest through timely and correct
                                     earnings records. On the other hand, the IRS is well-
                                     recognized as an enforcement agency that already
                                     achieves the desired results in the assessment of penalties
                                     for late filing of Forms W-2. SSA believes the greatest
                                     benefit would be realized with SSA increasing its efforts to
                                     work with the IRS to impose penalties on problem
                                     employers.

                                     SSA also noted that neither the Internal Revenue Code nor
                                     Regulations require that prospective employees show the
                                     employer their Social Security cards as a pre-condition for
                                     being hired. A change in such policy, if enforced, could
                                     have a tremendous impact on reducing ESF growth.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                      F-2
  Prior OIG Recommendation                                SSA Remarks

 Develop a management                SSA believes a management information system to track
 information system to identify      force processing information is no longer necessary. In
 employers who have their wage       Tax Year (TY) 2000, SSA changed the name/SSN
 reports force processed and         threshold to allow 95 percent of an employer’s electronic
 identify the number of times        wage reports to be in error before SSA rejects the
 their wage reports are force        submission. By implementing this policy, SSA virtually
 processed                           eliminated the need for force processing. However, for the
                                     last tax year, SSA sent educational correspondence letters
                                     to all employers who had any name/SSN mismatches.
                                     SSA is establishing an Earnings Data Warehouse that will
                                     help evaluate employer reporting trends, including errors,
                                     beginning with TY 1998 data. SSA expects the
                                     management information provided through the new system
                                     will help it more readily identify, track, and work with
                                     employers who have a large number of items with
                                     name/SSN mismatches that cannot be posted to a wage
                                     earner’s record.


Note: We did not independently verify the information contained in SSA's remarks.




Status of SSA’s Earnings Suspense File (A-03-03-23038)                                     F-3
                                                                       Appendix G
Prior Office of the Inspector General Reports
       Social Security Administration, Office of the Inspector General
               Reports Related to the Earnings Suspense File
    Common
  Identification                        Report Title                         Date
     Number                                                                 Issued
 A-03-02-22008       The Social Security Administration’s Employee      September 2002
                     Verification Service for Registered Employers
 A-03-01-11035       Effectiveness of the Social Security                August 2002
                     Administration’s Earnings After Death Process
 A-03-01-11034       Effectiveness of the Social Security                  July 2002
                     Administration’s Decentralized Correspondence
                     Process
 A-03-01-30035       Management Advisory Report: Recent Efforts            May 2002
                     to Reduce the Size and Growth of the Social
                     Security Administration’s Earnings Suspense
                     File
 A-03-00-10022       Management Advisory Report: Review of              September 2001
                     Service Industry Employer with Wage
                     Reporting Problems
 A-03-99-31001       Force Processing of Magnetic Media Wage               May 2001
                     Reports with Validation Problems
 A-08-99-41004       Obstacles to Reducing Social Security Number        January 2001
                     Misuse in the Agricultural Industry
 A-03-97-31003       The Social Security Administration’s Earnings       February 2000
                     Suspense Tactical Plan and Efforts to Reduce
                     the File Growth and Size
 A-03-98-31009       Patterns of Reporting Errors and Irregularities    September 1999
                     by 100 Employers with the Most Suspended
                     Wage Items




Status of SSA’s Earnings Suspense File (A-03-03-23038)
                                                                        Appendix H
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Walter Bayer, Deputy Director, (215) 597-4080

Acknowledgments
In addition to those named above:

   Carol Ann Frost, Computer Specialist

   Walter Mingo, Auditor-in-charge


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-03-23038.




Status of SSA’s Earnings Suspense File (A-03-03-23038)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
